Peace Corps
Office of Inspector General




Peace Corps/Burkina Faso office in Ougadougou




             Flag of Burkina Faso



     Final Audit Report:
  Peace Corps/Burkina Faso
                                          October 2009
   Final Audit Report:
Peace Corps/Burkina Faso
       IG-10-01-A




____________________________________
         Gerald P. Montoya
Assistant Inspector General for Audit




          October 2009
                                 EXECUTIVE SUMMARY

We found that, in general, Peace Corps/Burkina Faso’s financial and administrative
operations were functioning effectively and complied with agency policies and federal
regulations. We also found that post had established the necessary separation of duties over
financial responsibilities, developed an effective control mechanism for fuel cards through
coordination with the vendor, implemented successful procedures to manage its transit
house, and took a proactive stance in gathering documentation and establishing the
necessary control processes before the audit.

However, there were several areas in need of improvement. The more important findings
are summarized below.

Medical Supplies
The post medical unit clerk maintained the medical supplies database and had custody of the
medical supplies. Although the post attempted to implement new Peace Corps policies
regarding medical supplies, the duties still were not adequately segregated. Discrepancies
were found between the medical supply quantities in the database and the actual medical
supplies on hand.

Bills of Collection
The billing officer did not always maintain the supporting documentation for charges
incurred due to personal use of Peace Corps property.

Telecommunications
The post did not have a process for ensuring staff cell phone usage is reported to the billing
officer in a timely manner.

Personal Services Contractor Files
The personal services contractor files did not always contain documentation showing the
positions were properly competed and one file did not contain a signed intelligence
background information certificate.

Property Management
The general services officer did not maintain the support for the annual inventory. In
addition, some items were not properly listed on the inventory.

Our report contains 20 recommendations which if implemented should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Burkina Faso                                                     i
                                                   Table of Contents

EXECUTIVE SUMMARY ...............................................................................................................i

INTRODUCTION.......................................................................................................................... 1

AUDIT RESULTS ........................................................................................................................ 1

A. MEDICAL SUPPLIES…………………………………….……………………………………….…2
B. BILLS OF COLLECTION………..………………………...………….….…………………………...3
C. TELECOMMUNICATIONS…………………………………..…...……..……………………………3
D. PERSONAL SERVICES CONTRACTOR FILES………………..……………………….………………4
E. HOST COUNTRY CONTRIBUTION…………………………………………………………………..5
F. VEHICLES………………………………………...……………...…………………………………6
G. TRAVEL VOUCHERS……………………………………………………………………………….6
H. LEASES………….…………………………………………………………………………………7
I. PURCHASE CARDS……………………………………………………….………………………….8
J. PROPERTY MANAGEMENT...…………………………………………….………………………….8
K. TIME AND ATTENDANCE……..………………………………………….………………………...9
L. INFORMATION TECHNOLOGY……………………………………………….…………….………..9
M. VOLUNTEER ALLOWANCES…………………...……………………………...………………….10
N. IMPREST FUND…………………………………………………………………...………………10
O. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES…………………………11


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .................................................. 12

POST STAFFING ....................................................................................................................... 13

LIST OF RECOMMENDATIONS .................................................................................................. 14

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT’S RESPONSE

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION
The Office of Inspector General conducted an audit of Peace Corps/Burkina Faso June 29
– July 17, 2009. We conducted our last audit of the post in August 2002 (IG-02-18-A).

Peace Corps began work in Burkina Faso (then called Upper Volta) in 1966, but were
asked by the country to cease sending Volunteers in June 1986. In 1995, Peace Corps
resumed work in the country and sent 19 Volunteers to work in primary healthcare in
rural communities. Two years later, the Ministry of Secondary Education requested
Volunteers to work with middle schools, high schools, a teacher training college, and a
university to make up for large shortfalls in qualified teachers. In 2003, the government
and Peace Corps collaborated to start a small enterprise development project in
microfinance and agribusiness. The girls' education and empowerment program began in
2005 in collaboration with the Ministry of Basic Education.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with federal
regulations and Peace Corps policies during the period under audit. Appendix A
provides a full description of our audit objective, scope, and methodology.


                                     AUDIT RESULTS

We found that, in general, Peace Corps/Burkina Faso’s financial and administrative
operations were functioning effectively and complied with agency policies and federal
regulations. We also found that post had established the necessary separation of duties
over financial responsibilities, developed an effective control mechanism for fuel cards
through coordination with the vendor, implemented successful procedures to manage its
transit house, and took a proactive stance in updating their documentation and
establishing the necessary control processes before the audit.

However, there were several areas in need of improvement. For example, we found that
the post did not:

    •   fully implement the medical supply procedures defined in Peace Corps Manual
        (PCM) section 734;
    •   always maintain the supporting documentation for charges incurred due to
        personal use of Peace Corps property;
    •   maintain the support for the annual inventory of property showing reconciliations;
    •   always include evidence of competition and a signed intelligence background
        information certificate in the personal service contractor files; and
    •   implement a process for ensuring staff cell phone usage is reported to the billing
        officer in a timely manner.



Final Audit Report: Peace Corps/Burkina Faso                                               1
                                                                       A. Medical Supplies
                                                  Findings                                   Criteria                                    Recommendations
            1. Although the country                                               PCM section 734 requires:                     We recommend:
            director assigned separate                                            • The Acceptance Point Clerk
            roles, the post did not fully                                         (APC) to open medical supply                  A.1. That the PCMO fully implement
            separate the duties as required                                       shipments in the presence of the              PCM section 734.3.4.1 by:
            by PCM section 734.                                                   PCMO…and sign the PC-734B.
                                          • The medical clerk ordered,            • The MSIC to maintain a current              • reviewing all medical supply
                                          received, and inventoried               inventory of designated medical               shipments with the APC.
                                          medical supplies.                       supplies based on forms PC-734B
                                                                                  for receipt, PC-734D for dispense,
                                          • The Medical Supply Inventory                                                        • using the proper Peace Corps
                                                                                  and PC-734E for disposal.
                                          Clerk (MSIC) was not controlling                                                      forms when receiving, dispensing,
                                          the medical inventory control log.      • A member of staff from outside
                                                                                  the Medical Unit, who is not the              and disposing of medical supplies.
                                          • Peace Corps Medical Officer
                                                                                  MSIC or APC, to conduct an
                                          (PCMO) was not verifying receipt
                                          of all medical supply shipments.
                                                                                  inventory of medical supplies on a            • providing the required medical
                                                                                  quarterly basis.                              supply forms to the MSIC on a
                                          • Medical staff did not use the
                                          proper medical supply forms.                                                          routine basis.
                                                                                  Government Accountability
                                                                                  Office internal controls                      A.2. That the post document and
            2. The post did not maintain
                                                                                  standards (GAO/AIMD-00-                       retain original copies of the quarterly
            quarterly inventory documents.
                                                                                  21.3.1) require proper                        medical supply inventories in a
                                                                                  separation of duties, to                      readily available location.
            3. Six out of 10 sampled
                                                                                  include separating custody
            supplies (not controlled
                                                                                  from record keeping.
            substances) had an incorrect
            amount listed on the inventory.




                                                  Medical Supplies Responsibilities
                                            (from receipt to annual inventory submission)
          medical unit)
          (outside the
    APC




                                               APC opens supplies,        Both sign the         Is the item
                                             checks contents against     form PC-734B            specially
                                             invoice, and accepts or   Receiving Report/       designated
                                                rejects goods in the    Transfer Receipt      or a controlled
                                              presence of the PCMO.                             substance?
                                                                                                                    PCMO dispenses a             PCMO (with CD) disposes
          PCMO




                                                                                                                  specially designated or         of a specially designated
                                                                                                                 controlled substance and         or controlled substance
                                                                                                                 Prepares form PC-734D.         and prepares form PC-734E.
                                                                                                      Yes

                                                                                                                       Form PC-734D
                                                                                                 Copy of                                           Form PC-734E
                                                                                                                         Record of
                                                                                                   form                                            Medical Supply
             (outside the medical unit)




                                                                                                                      Medical Supplies
                                                                                                 PC-734B                                              Disposal
                                                                                                                         Dispensed
     MSIC




                                                                                                                                                                     Annually, MSIC clerk
                                                                                                                                                                    Sends the log to the CD
                                                                                                                    Updates the records                                for signature and
                                                                                                                  in the PC-734C Medical                                 submission to
                                                                                                                   Inventory Control Log.                              PC headquarters.



                                                                                              Copy of log
                                                                                                                                                    Documentation
    Designated




                                                                                              provided to
     Post Staff




                                                                                             compare with                                          of discrepancies
                                                                                             physical items.                                       identified during
                                                                                                                                                      Inventory.
                                                                                                                Conducts quarterly inventory
                                                                                                                 verification in the presence
                                                                                                                   of the MSIC or PCMO
                                                                                                                 (or PCMO representative).




Final Audit Report: Peace Corps/Burkina Faso                                                                                                                                                  2
                              B. Bills of Collection
               Finding                         Criteria                  Recommendation
       The voucher examiner         Overseas Financial              We recommend:
       served as the billing        Management Handbook
       officer, but did not         (OFMH) section 7.2.1            B.1. That the billing officer
       always maintain the          requires that “the billing      maintain copies of
       documentation to             officer determine the amount    documentation supporting the
       support charges              owed based on specific          basis for the charge in the bill
       incurred due to              documentation /information      of collection files.
       personal use of Peace        and to include the support in
       Corps property (such as      their files.”
       vehicle use records,
       transit house
       reservations and logs,
       and phone bills).

       Instead, the individuals
       responsible for tracking
       property use
       maintained most of the
       documents supporting
       the charges.




                          C. Telecommunications
               Finding                         Criteria                 Recommendations
       The post did not have a      According to PCM section        We recommend:
       process for ensuring         834.4.2, “Country Directors
       staff cell phone usage       should review itemized phone    C.1. That the billing officer
       is reported to the billing   bills monthly.”                 develop a process to ensure
       officer in a timely                                          staff provide a written response
       manner.
                                                                    identifying personal cell phone
                                                                    calls that require
       Although the billing                                         reimbursement. Staff must
       officer sent copies of                                       provide their responses to the
       the cell phone bill to the                                   billing officer in a timely
       staff, she did not track                                     manner.
       which staff returned the
       bill identifying personal                                    C.2. That the country director
       calls.                                                       review the itemized phone bills
                                                                    monthly.
       Further, the country
       director did not review
       the itemized phone bills.




Final Audit Report: Peace Corps/Burkina Faso                                                           3
         D. Personal Services Contractor Files
              Findings                         Criteria                   Recommendations
       1. Of the 12 personal       According to PCM section           We recommend:
       services contractor         743.9.2.1, “For new contracts,
       (PSC) folders reviewed:     offers are to be requested         D.1. That the administrative
       • Two did not contain       from at least three potentially
                                                                      officer maintain documentation
       evidence that the           qualified candidates.”             supporting competition of PSC
       positions were properly                                        positions in the PSC folders.
       competed.                   PCM section 743.8.1, states,
       • One PSC did not sign      “Intelligence Background           D.2. That the country director
       an intelligence             Information Certification –        ensure that all PSCs sign the
       background information      (PSCs) are subject to the          intelligence background
       certificate.                policy and eligibility standards   information certificate.
                                   set forth in (PCM) Section
       2. In FY 2008, security     611 concerning eligibility of
       checks and intelligence     applicants with intelligence
       background information      backgrounds.”
       certificates were not
       completed timely.
       Most were completed in
       April 2009.




              Findings                         Criteria                   Recommendations
       3. The post received        PCM section 744.18.0               We recommend:
       proper authorization to     establishes the order of
       pay a third country         priorities for providing housing   D.3. That the country director
       national’s housing          for personal service               fully document the process
       costs, but did not fully    contractors who are required,      followed when attempting to
       document the decision       in the performance of their        find a suitable housing solution
       process and                 contractual obligations, to        for third country nationals. The
       alternatives offered to     travel away from home.             documentation must explain
       the individual.                                                why the options were
                                                                      unsuitable.
       4. PCM section
       744.18.10 discusses
       housing options for                                            D.4. That the Office of
       contractors, but does                                          Acquisitions and Contract
       not include an option for                                      Management revise PCM
       cost reimbursement.                                            section 744 to include the
       However, attachment G                                          process for approving housing
       allows the country                                             allowances on cost
       director to pay for                                            reimbursement for third country
       housing and utilities.                                         nationals.




Final Audit Report: Peace Corps/Burkina Faso                                                             4
                   E. Host Country Contribution
               Finding                         Criteria                    Recommendation
       1. The post recognized      PCM section 722.7.2.1 states,      We recommend:
       an in-kind host country     “The recorded value of in-kind
       contribution from           contributions shall be based       E.1. That the administrative
       communities that            on a rational estimate of the      officer document the basis for
       provided free housing       cost of the contributed            the amount presented in the
       to Volunteers.              supplies or services to the        budget for the host country
                                   Peace Corps.                       contribution for Volunteer
       However, the                •The actual cost to the Peace      housing.
       contribution amount         Corps of purchasing similar
       listed in the post’s        supplies or services in the same
       budget was not              time period;
       supported by a fair         •The documented cost to other
       market value                organizations (Embassy, USAID,
       assessment or other         PVO's) of purchasing similar
                                   supplies or services in the same
       reasonable estimate.
                                   time period; and
                                   •A survey of the local offering
                                   price for similar supplies or
                                   services...”




               Finding                         Criteria                    Recommendation
       2. The post receives a      According to PCM section           We recommend:
       tax exoneration on fuel     722.3.0, “Host government
       of 10,000 liters per        and other local contributions      E.2. That the administrative
       quarter. However, the       are an important aspect of         officer review the agreement
       country laws and the        Peace Corps operations.            with the host country for tax
       post’s exoneration          Such contributions indicate        exoneration on fuel and
       certificate permits         host-country support for           determine if the limit can be
       exoneration of all taxes.   Peace Corps and help defray        removed or increased.
                                   Peace Corps expenses,
       In FY 2008, the post        enabling the Agency to use its
       used 12,426 liters of       budget more effectively.
       fuel that did not receive
       the tax exoneration.        It is Peace Corps policy to
       The post would have         encourage the maximum use
       saved approximately         of cash and in-kind
       $2,559 if the tax           contributions from the host
       exoneration amount          country that are feasible and
       was not limited.            appropriate.”




Final Audit Report: Peace Corps/Burkina Faso                                                           5
                                         F. Vehicles
              Findings                         Criteria                     Recommendations
       1. The post did not use      PCM section 527.5.4                We recommend:
       the official Peace Corps     requires that the weekly
       vehicle usage form.          vehicle usage log "Form PC-        F.1. That the general services
       However, its log books       527B" be reviewed by the           officer ensure that maintenance
       contained all of the         staff responsible for vehicle      records are current and well
       necessary information.       repair and maintenance, the        organized to ensure that
                                    administrative officer, and        suggested preventive care is
       2. The general services      the billing officer each week.     taken and all repairs are made
       officer did not keep well-
                                                                       timely.
       organized vehicle            PCM section 527.5.3
       maintenance records.         requires that each post
                                    maintain vehicles and              F.2. That the administrative
       3. Two vehicles had          records of the following:          officer establish a process to
       minor damages that had                                          ensure the regional office’s
       not been repaired.           (a) Manufacturer recommended       vehicle log book is submitted
                                    preventive maintenance…;
                                                                       for proper review on a weekly
       4. Staff did not review                                         basis.
                                    (b) Purchase and installation of
       the vehicle log from the     special, heavy-duty parts and
       regional office weekly.      accessories...




                               G. Travel Vouchers
               Finding                         Criteria                     Recommendation
       Two of the six reviewed      OFMH section 57.1 and              We recommend:
       travel vouchers had toll     55.6.2 requires posts to
       charges that did not         review travel vouchers to          G.1. That the cashier and
       match the dates of           ensure actual travel dates         administrative officer ensure that
       travel. Staff explained      are within the authorized          drivers claim only charges
       that the charges were        dates and computations are         associated with the travel
       incurred by drivers          correct.                           authorization.
       during their duty hours
       and were not
       attributable to a specific
       travel voucher.

       During the site visit the
       administrative officer
       began developing a
       process for drivers to
       submit cost
       reimbursements for toll
       charges incurred while
       on duty.




Final Audit Report: Peace Corps/Burkina Faso                                                                6
                                          H. Leases
               Finding                         Criteria                    Recommendation
       1. The post leased a         PCM section 733.2.0 states,       We recommend:
       staff house at an off-site   “The Country Director shall
       training location for 12     determine the appropriate         H.1. That the administrative
       months, even though          duration of the lease period      officer lease the housing at the
       training was shortened       based upon the type of lease      training site only during the
       to three months in FY        (residential, office, training    training period and utilize the
       2009. The post used          site), the local rental market,   warehouse to store training
       the space to store the       the stability of the program      equipment for the remainder of
       equipment and other          and staff size, and the           the year.
       supplies. However, the       availability of funds.”
       post had unused
       storage space in a
       warehouse at the U.S.
       embassy.

       The post could have
       saved approximately
       $2,046 by leasing the
       staff house for only
       three months.




               Finding                         Criteria                    Recommendation
       2. One recent lease          PCM section 733.4.2 states:       We recommend:
       was not supported by         “To the maximum extent
       documentation showing        practicable, leases shall be      H.2. That the administrative
       competition.                 awarded on a competitive          officer maintain documentation
                                    basis.”                           showing the competition of
                                                                      leases in the lease folders.




Final Audit Report: Peace Corps/Burkina Faso                                                             7
                                  I. Purchase Cards
              Findings                           Criteria                        Recommendation
       1. The post did not             PCM section 731.7.6                  We recommend:
       maintain records                requires that the “Approving
       showing that purchase           Official reviews, approves           I.1. That the administrative
       card statements were            and signs Cardholder                 officer electronically approve
       closed electronically.          monthly statement of                 purchase card statements within
                                       account within eight                 eight business days after the
       2. In FY 2008, the              business days after the close        close of the monthly billing cycle
       country director did not        of the monthly billing cycle."       and maintain a copy of the
       review three of the 12
                                                                            approved statement in the
       purchase card
                                                                            purchase card files.
       statements within eight
       business days after the
       close of the monthly
       billing cycle.

       In FY 2009, the
       administrative officer
       was designated as the
       purchase card
       approving official.




                         J. Property Management
                Findings                            Criteria                     Recommendations
       1. The general services            PCM section 511.5.1,              We recommend:
       officer did not maintain           requires the following
       support for the annual             items be inventoried:             J.1 That the general services
       inventory showing                                                    officer correct the inventory
       reconciliations.                   • Non-expendable items with       discrepancies identified during
                                          a value of $500 or more;          the audit.
       2. Out of 20 sampled               • Items costing less than $500
       items on the inventory:            that are highly pilferable; and
        One item no longer existed,      • Items costing less than $500    J.2 That the general services
        One item was in a different      that have been assigned a         officer maintain copies of the
       location than listed, and          manufacturer's serial number      annual inventory showing the
        One record was duplicated.       (most electronic equipment).      reconciliation process and any
                                                                            required changes.
       3. A refrigerator and stove        PCM section 511.5.2
       at the regional office were        requires an annual                J.3 That the regional office
       not on the inventory.              physical inventory.               manager develop and maintain
                                                                            a supply list of bike parts.
       4. The regional office did
       not maintain a bike parts
       supply list.




Final Audit Report: Peace Corps/Burkina Faso                                                                     8
                         K. Time and Attendance
               Finding                         Criteria                          Comment
       Supervisors did not           PCM section 742 states,           The post was in the process of
       review the staff’s official   “each leave record (PC-57)        correcting the issue during the
       time and attendance           shall be routinely reviewed for   audit visit. Therefore, no
       records. The post used        accuracy by the supervisor as     recommendation is necessary.
       the PC-57 form as the         of June 15th and December
       official record, but had      15th of each leave year…”
       not completed the
       supervisory review by
       June 15, 2009.

       In July 2009, staff
       reviewed their PC-57
       and then sent them to
       their supervisors.




                       L. Information Technology
               Finding                         Criteria                          Comment
       The post’s computer           PCM section 542.7.1 limits        The post corrected this issue
       network contained five        access to IT systems to only      during the audit visit.
       unnecessary user              necessary users.                  Therefore, no recommendation
       accounts.                                                       is necessary.

       The information
       technology specialist
       removed these
       accounts from the
       network during the audit
       visit.




Final Audit Report: Peace Corps/Burkina Faso                                                             9
                        M. Volunteer Allowances
               Finding                         Criteria                     Comment
       The post did not           PCM section 221.5.7.2           The post corrected this issue in
       conduct a market           states: “To verify living       FY 2009. Therefore, no
       basket survey in FY        allowance submissions, a        recommendation is necessary.
       2008. However, the         Market Basket Survey shall
       post began preparing       be conducted by staff….
       market basket surveys
       in June 2009.              The market basket survey is
                                  to be used as a guide to
                                  validate the cost data on the
                                  living allowance survey
                                  submissions.”




                                  N. Imprest Fund
              Findings                         Criteria                     Comment
       1. PSCs were serving       OFMH section 13.18.2            The Office of General Counsel
       as occasional money        states, “If a staff member is   is in the process of developing
       holders, but did not       an occasional money holder,     guidance related to which
       have these duties listed   this requirement must be in     individuals at posts are
       in their contracts’        the statement of work.”         authorized to receive interim
       statements of work.                                        advances.
                                  U.S. Treasury Department
       2. The general services
                                  policy as implemented by the    Therefore, no recommendation
       officer signed the
                                  Department of State (4 FAH-     is being made pending the
       interim advance of
                                  3 H-390) states, “Contractors   clarification and updating of
       funds on behalf of
                                  may not be occasional           Peace Corps policy.
       drivers, who served as
                                  money holders.”
       occasional money
       holders.




Final Audit Report: Peace Corps/Burkina Faso                                                         10
                 O. International Cooperative
                Administrative Support Services
                 Finding                       Criteria                    Comment
       The post incurred annual      OFMH section 28.4           In July 2009, the country
       International Cooperative     states, “It is important    director requested an
       Administrative Support        for posts to carefully      explanation of the general
       Services (ICASS) costs of     monitor their use of and    services costs from the U.S.
       $16,367 for general services  evaluate the need for       embassy and asked for a
       costs. However, the only      support via                 reduction in amount paid by the
       general services provided to  ICASS. Although             Peace Corps. Therefore, no
       the post by the U.S.          ICASS funds are not in      recommendation is necessary.
       embassy were for customs      Post budgets, fees
       and shipping clearances.      effectively reduce
                                     funding available for all
       The U.S. embassy in Burkina
                                     Peace Corps
       Faso uses “ICASS lite,”
                                     programs.”
       which does not attribute
       general services costs based
       on actual use. However, the
       post may be able to obtain a
       reduction of these costs from
       the U.S. embassy.




Final Audit Report: Peace Corps/Burkina Faso                                                       11
                        QUESTIONED COSTS AND
                     FUNDS TO BE PUT TO BETTER USE

We identified certain questioned costs and funds to be put to better use during the course
of the audit. They are discussed in the accompanying audit report and enumerated below
along with the recommendation number in the report. Amounts are in U.S. dollars or
U.S. dollar equivalents of Burkina Faso Communaute Financier Africaine [CFA] francs
at the rate of $1 equals 534 CFA francs.

                                        Questioned Costs

     Finding                             Description                                  Amount
                  International Cooperative Administrative Support
     O                                                                                   *
                  Services costs for general services.
* Amount not determined as of the audit completion date.


                               Funds to be Put to Better Use

    Finding
                                               Description                            Amount
    number
      E.2            Fuel taxes that were not exonerated by the host country.         $ 2,559
                     Cost of leasing the staff house at the training site for 9 out
       H.1                                                                            $ 2,046
                     of 12 months of the year.
    TOTAL                                                                             $ 4,605




Final Audit Report: Peace Corps/Burkina Faso                                                 12
                                      POST STAFFING
At the time of our visit, the post had 36 staff positions: three U.S. direct hire employees,
two foreign service nationals, and 31 personal services contractor positions. We
interviewed staff members, including the three U.S. direct hire employees and the two
foreign service national employees. The staff was cooperative and provided the
necessary documentation.

Volunteers expressed their appreciation for the post management team, the program and
training staffs, and the PCMOs for their availability and their demonstrated interest in the
Volunteers’ well-being and success. Volunteers also told us that they had received
effective ongoing support from the administrative unit.

                              Peace Corps/Burkina Faso Positions
                                   Position                            Status
           Administrative Officer                                  USDH
           APCD/Girls Education                                    PSC
           APCD/Health                                             PSC
           APCD/Secondary Education                                PSC
           APCD/Small Enterprise Development                       USDH
           Cashier                                                 FSN
           Country Director                                        USDH
           Driver (6)                                              PSC
           Financial Assistant                                     PSC
           General Services Officer                                PSC
           General Services Officer Assistant (2)                  PSC
           Guard (3)                                               PSC
           Hostel Manager                                          PSC
           Information Resource Center Manager                     PSC
           Information Technology Specialist                       PSC
           Janitor (3)                                             PSC
           Medical Secretary                                       PSC
           Messenger                                               PSC
           PCMO (2)                                                PSC
           Program Assistant                                       PSC
           Receptionist                                            PSC
           Safety and Security Coordinator                         PSC
           Training Manager                                        PSC
           Volunteer Support Officer                               FSN
           Voucher Examiner                                        PSC




Final Audit Report: Peace Corps/Burkina Faso                                               13
                          LIST OF RECOMMENDATIONS

We recommend:

A.1. That the PCMO fully implement PCM section 734.3.4.1 by:

    •   reviewing all medical supply shipments with the APC.

    •   using the proper Peace Corps forms when receiving, dispensing, and disposing of
        medical supplies.

    •   providing the required medical supply forms to the MSIC on a routine basis.

A.2. That the post document and retain original copies of the quarterly medical supply
inventories in a readily available location.

B.1. That the billing officer maintain copies of documentation supporting the basis for
the charge in the bill of collection files.

C.1. That the billing officer develop a process to ensure staff provide a written response
identifying personal cell phone calls that require reimbursement. Staff must provide their
responses to the voucher examiner in a timely manner.

C.2. That the country director review the itemized phone bills monthly.

D.1. That the administrative officer maintain documentation supporting competition of
PSC positions in the PSC folders.

D.2. That the country director ensure that all PSCs sign the intelligence background
information certificate.

D.3. That the country director fully document the process followed when attempting to
find a suitable housing solution for third country nationals. The documentation must
explain why the options were unsuitable.

D.4. That the Office of Acquisitions and Contract Management revise PCM section 744
to include the process for approving housing allowances on cost reimbursement for third
country nationals.

E.1. That the administrative officer document the basis for the amount presented in the
budget for the host country contribution for Volunteer housing.

E.2. That the administrative officer review the agreement with the host country for tax
exoneration on fuel and determine if the limit can be removed or increased.


Final Audit Report: Peace Corps/Burkina Faso                                              14
F.1. That the general services officer ensure that maintenance records are current and
well organized to ensure that suggested preventive care is taken and all repairs are made
timely.

F.2. That the administrative officer establish a process to ensure the regional office’s
vehicle log book is submitted for proper review on a weekly basis.

G.1. That the cashier and administrative officer ensure that drivers claim only charges
associated with the travel authorization.

H.1. That the administrative officer lease the housing at the training site only during the
training period and utilize the warehouse to store training equipment for the remainder of
the year.

H.2. That the administrative officer maintain documentation showing the competition of
leases in the lease folders.

I.1. That the administrative officer electronically approve purchase card statements
within eight business days after the close of the monthly billing cycle and maintain a
copy of the approved statement in the purchase card files.

J.1 That the general services officer correct the inventory discrepancies identified during
the audit.

J.2 That the general services officer maintain copies of the annual inventory showing the
reconciliation process and any required changes.

J.3 That the regional office manager develop and maintain a supply list of bike parts.




Final Audit Report: Peace Corps/Burkina Faso                                               15
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The audit of Peace Corps/Burkina Faso covered fiscal years 2008 and 2009 through
July 17, 2009. While at the post, we interviewed key staff and Volunteers to obtain their
views on the effectiveness of the post’s administrative and financial systems. At the end
of our audit, we briefed the country director and administrative officer. At headquarters,
we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps Manual, the Overseas Financial Management Handbook, and current Peace Corps
initiatives and policies.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
                                              Since 1961.
  MEMORANDUM

  Date:        October 1, 2009

  To:          Kathy Buller, Inspector General

   From:
               Lynn Fodell, Acting Afiica Regional Dire~
   CC:         Chief of Staff/Chief of Operations, Stacy Rhodes
               Bradley Grubb, Senior Auditor
               Nicola Cullen, Acting Chief Compliance Officer
               Douglass Teschner, Country Director Burkina Faso
               Larry Blake, Chief Administrative Officer
               Burkina Faso Country Desk Unit

The Office of the Inspector General (OIG) conducted an audit of Peace Corps/Burkina Faso
(PC/BF) in June and July of2009. As outlined in the August 2009 report, senior auditor Bradley
Grubb reviewed Post's financial and administrative operations.

The Region and Peace Corps/Burkina Faso found the OIG audit to be helpful and appreciate the
efforts of Mr. Grubb. He explained the mission of the OIG and the audit process to the Peace
Corps/Burkina Faso staff. His professional courtesy was appreciated by post staff who learned a
great deal from the process.

The Region and PC/BF fully concur with 17 of the 19 applicable recommendations provided by
the OIG. We partially concur with the remaining two recommendations, D.3 and H.1.
Recommendation D.4 requires OCAM action.

A detailed explanation for how each recommendation will be addressed is outlined below. Peace
Corps/Burkina Faso has already implemented many of the recommendations on a "go forward"
basis and is in the process of addressing the remaining recommendations.

Some of the changes instituted as a result of the audit include the:
   . Enhancement of Standard Operating Procedures for:
          o Bills of Collection
          o Documentation for HCC PCV lodging
   . Better adherence to PCM section 734.3.4.1
   .   Introduction of new and complete system for tracking bike parts and vehicle maintenance
       and repair

The Region and post understand there is always room for improvement, and we are appreciative
of the insight and information provided by the Peace Corps Office of the Inspector General.




                                                  Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                    October 1,2009
                                                                                                              Page 2
Recommendations and ResDonses

A.I.   That the PCMO fully implement PCM section 734.3.4.1 by:
       ··
        reviewing all medical supply shipments with the APC.
        using the proper Peace Corps forms when receiving, dispensing, and disposing of
        medical supplies.
       ·providing the required medical supply forms to the MSIC on a routine basis.

Response:      Concur

Post intends to fully concur with the regulations and suggestions for improvement identified by
the auditor. We would like to note, however, that, while its adherence to these new regulations
has not been perfect, PC/BF has been very proactive and has shown a lot of initiative in trying to
comply with this new directive. Post PCMOs recently returned from CME and report that
PC/BF is in the forefront of implementing these new, complex, and highly demanding (in terms
of staff time) regulations. We would have appreciated it if this had been acknowledged in the
audit report.

On a go forward basis, post will implement the flow chart as laid out by Mr. Grubb. The
PCMOs will review all medical supply shipments with the APC, use the proper PC forms when
receiving, dispensing, and disposing of medical supplies, and provide the required medical
supply forms to the MSIC on a routine basis.

We also suggest that GC review this Manual Section to see if its intent can be implemented in a
more streamlined and efficient manner.

Completion Date:        On a go forward basis


A.2.   That the post document and retain original copies of the quarterly medical supply
       inventories in a readily available location.

Response:      Concur

Post concurs with this, and these copies will be kept readily available in the medical office.

Completion Date:        On a go forward basis


B.l.   That the billing officer maintain copies of documentation supporting the basis for
       the charge in the bill of collection files.

Response:      Concur

At post, there are multiple types of BOCs for which documentation is complete including
personal phone use by staff members, LLA reimbursements from PCVs, and for staff personal

                                                       Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                         October 1,2009
                                                                                                                   Page 3




                                                   -    ---
use of PC vehicles. The single exception for which documentation was not complete was for
nights at the Transit House by PCVs from other countries. Admittedly, there has not been a lot
of documentation to go along with that since PCVs sometimes show up without a reservation.
To rectify this situation, post will start printing the log to show when a PCV from another
country has stayed at the Transit House to use for backup and make sure that each BOC has
adequate supporting documentation.

Completion Date: On a go forward basis


c.t.   That the billing officer develop a process to ensure staff provide a written response
       identifying personal cell phone calls that require reimbursement. Staff must provide
       their responses to the voucher examiner in a timely manner.

Response:      Concur

Post has had a longstanding process to collect for personal cell phone calls, but will tighten it up
by establishing a phone bill tracker that will be reviewed by the AO on a monthly basis. For
those members who have not paid their BOCs within the month, they will receive a reminder. If
there is continued inaction on their part, the CD will be informed.

Completion Date:        On a go forward basis


C.2.   That the country director review the itemized phone bills monthly.

Response:      Concur

The CD will start reviewing these bills on a monthly basis. Post questions, however, if this is the
best use of CD time and requests review by GC of this MS requirement.

Completion Date: On a go forward basis


D.l.    That the administrative officer maintain documentation supporting competition of
        PSC positions in the PSC folders.

Response:      Concur

While post has done this in an informal sense, it will now start being more formal regarding this
process and the documentation in PSC files.

Completion Date:        On a go forward basis




                                                     Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                       October 1,2009
                                                                                                                 Page 4




                                       -
D.2.   That the country director ensure that all PSCs sign the intelligence background
       information certificate.

Response:      Concur

Post has done this as formal practice, but the auditor identified a case where it was missing from
the file. Post will tighten up procedures to ensure it is done in every case.

Completion Date:        On a go forward basis


D.3.   That the country director fully document the process followed when attempting to
       find a suitable housing solution for third country nationals. The documentation
       must explain why the options were unsuitable.

Response:      Partially Concur

Post produced for the inspector a two-inch thick file of documentation relative to the single case
in question. While post believes that the situation was more than adequately documented, should
the situation happen in the future, it will insist upon the staff member in question providing
reasons in writing for not accepting a particular housing situation, including the house in
question, date visited, and reasons for nonacceptance.

Completion Date:        On a go forward basis


D.4.   That the Office of Acquisitions and Contract Management revise PCM section 744
       to include the process for approving housing allowances on cost reimbursement for
       third country nationals.

Response:      NA to Region or Post

Completion Date:        NA


E.l.   That the administrative officer document the basis for the amount presented in the
       budget for the host country contribution for Volunteer housing.

Response:      Concur

This is a number that is hard to document as there is no reliable sales or rental data at the village
level. There are no formal rental agreements in place at PC/BF; the communities agree to
provide housing to the PCVs as a minimum requirement for hosting a Volunteer. Based on
discussion with APCDs at post, PC/BF believes the current 15,000 CFA per month per PCV for
HCC for housing is a reasonable amount given the county's economic situation. In the event
new information becomes available, post will adjust this accordingly.

                                                      Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                        October 1,2009
                                                                                                                  Page 5




                                                             - --    -        --
Completion Date:        On a go forward basis


E.2.   That the administrative officer reviews the agreement with the host country for tax
       exoneration on fuel and determine if the limit can be removed or increased.

Response:     Concur

Post discussed this situation with the US embassy. Peace Corps is part ofthe mission and does
not have a separate right to exoneration; that comes from the embassy. At this moment, the
GoBF does not want to increase the amount of exonerated fuel it gives to the US Mission.

Completion Date:        09/15/2009


F.1.   That the general services officer ensure that maintenance records are current and
       well-organized to ensure that suggested preventive care is taken and all repairs are
       made timely.

Response:      Concur

Post has done this as an informal practice, but understands the need to tighten up documentation.
The General Services Assistant and the AO have devised a tracking sheet. Post has designated
the first and third Monday and Tuesday of each month as no travel, and maintenance is being
planned for those days.

Completion Date:        On a go forward basis


F.2.   That the administrative officer establish a process to ensure the regional office's
       vehicle log book is submitted for proper review on a weekly basis.

Response:      Concur

The program Assistant at the Regional Office will scan the vehicle log sheet on a weekly basis
and e-mail it to the AO who will review and file it.

Completion Date:        On a go forward basis


G.l.   That the cashier and administrative officer ensure that drivers claim only charges
       associated with the travel authorization.

Response:      Concur


                                                    Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                      October 1,2009
                                                                                                               Page 6
Travel authorizations are done on a quarterly basis so all drivers are under a TA whenever they
are driving a PC vehicle. Therefore, post believes it is already in compliance, and all receipts
submitted are for legitimate and verifiable travel expenses.

By way of background, post drivers are asked to make runs to the training site, the airport, and
other places on official business where they often incur minor costs such as parking and road
tolls. Rather than clog up the financial system with a lot of minor requests for reimbursements,
post feels that it should continue the present system of asking drivers to include these minor
expenses, normally less than $1, when they submit a larger reimbursement request (typically
after an overnight trip).

In order to comply with this recommendation drivers will continue to submit road tolls and
parking fees on a claim form but will document the date that the cost was incurred.

Completion Date:        On a go forward basis


H.t.   That the administrative officer lease the housing at the training site only during the
       training period and utilize the warehouse to store training equipment for the
       remainder of the year.

Response:      Partially concur

While this recommendation has some merit, the logistics of this at the present time are
challenging. Post will hold one more training at the PST site in Ouahigouya in June 2010. After
that, post will seek a new training site elsewhere in Burkina Faso. In the interim, PC/BF would
rather stay with the present system which post feels is cost effective given the low rent when
compared to transporting various materials to Ouagadougou (then back to Ouahigouya in June).
Further, the staff time invested in finding a new staff house in Ouahigouya in June 2010 will be
substantial. The rental savings realized ($2000/year) would be more that offset in other costs.
We will, however, explore this interesting option at our next training site to be operable in June
2011 which could be closer to Ouagadougou making this suggestion more cost effective.

Completion Date:        June 2011


H.2.   That the administrative officer maintain documentation showing the competition of
       leases in the lease folders.

Response:      Concur

While this has always been unofficially done here at post, the AO will make sure to make it more
official

Completion Date:        On a go forward basis


                                                    Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                      October 1,2009
                                                                                                               Page 7
1.1.   That the administrative officer electronically approve purchase card statements
       within eight business days after the close of the monthly billing cycle and maintain a
       copy of the approved statement in the purchase card files.

Response:      Concur

The only error in the past was the failure to print out a paper copy of the approval. Post is now
printing out the paper copy for the file.

Completion Date:        On a go forward basis


J.1.   That the general services officer correct the inventory discrepancies identified
       during the audit.

Response:      Concur

The corrections are underway.

Completion Date:        September, 2009


J.2.   That the general services officer maintain copies of the annual inventory showing
       the reconciliation process and any required changes.

Response:      Concur

The auditor told post that it had been proactive in purchasing software for inventory purchases,
including use of a scanning system. Post understands this recommendation to mean that the
reconciliation process can be better documented which is being implemented.

Completion Date:        On a go forward basis


J.3.    That the regional office manager develops and maintains a supply list of bike parts.

Response:      Concur

Staff will be developing a plan for tracking any and all bike parts that are requested from the
regional office.

Completion Date:        September, 2009




                                                     Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                       October 1,2009
                                                                                                                Page 8
Closing

In closing, Africa Region and post would like to reiterate its appreciation of Mr. Grubb. He was
very professional and also made the staff feel at ease while he was in Burkina Faso. He also
made a number of favorable comments about PC/BF, both while he was at post and back at
headquarters. For example, he referred to operation of the PC/BF Volunteer transit house as a
best practice and noted that Volunteers were generally happy with their PC experience and
positive about their relations with the staff. Post would have appreciated if formal recognition of
post best practices had been included in the report. We encourage OIG to recognize positive
practices and efficiencies identified at posts when finalizing audit reports. This type of
recognition would be a great boost to staff morale and could provide useful information for other
posts in Africa Region as well.

We look forward to working with the OIG to address and close all the recommendations as soon
as possible.




                                                    Africa Region Response to Inspector General Audit of Burkina Faso
                                                                                                      October 1,2009
                                                                                                               Page 9
APPENDIX C

                               OIG COMMENTS

Management concurred with all 20 recommendations made in our report. As a result, we
closed 17 recommendations. We request additional documentation to close
recommendations D.4, G.1, and I.1. These recommendations remain open pending
confirmation from the chief compliance officer that the following has been received:

       •   For recommendation D.4: Documentation showing that the Office of
           Acquisitions and Contract Management has coordinated with regional
           management and the Office of General Counsel to determine whether cost
           reimbursed housing is an acceptable practice. Documentation that the Office
           of Acquisitions and Contract Management has formalized and communicated
           the final decision to ensure that posts comply and do not enter into
           arrangements that are not in accordance with PCM section 744.

       •   For recommendation G.1: Documentation showing that the post has
           established an acceptable alternative to reimburse toll and parking fees.

           Management’s response was partially responsive. Including these routine
           charges on travel vouchers associated with trips that have clear start and end
           dates is misleading. The Overseas Financial Management Handbook section
           18.10 states, “A travel voucher for each trip performed at Peace Corps
           expense must be completed and submitted within 5 working days after
           completion of travel.” The toll and parking charges are reoccurring and not
           associated with a particular trip or completed travel.

           If the post continues to submit travel vouchers for the daily charges incurred
           by duty officers it must prepare a travel voucher for each trip. Alternatively,
           the post should consider requiring drivers to submit miscellaneous
           reimbursements for the charges. The post expressed concern that submitting
           requests for reimbursements would clog up the financial system. However, if
           the charges are submitted for reimbursement in bundles the increase in
           reimbursement requests could be better managed.

       •   For recommendation I.1: Documentation acknowledging that the post’s 2008
           purchase card statements were not always closed timely and documentation
           from the last three months showing that the approving official closed the card
           statements within eight business days after the close of the monthly billing
           cycle.

           We would like to note that the post’s comments did not fully address our
           recommendation. Maintaining paper copies of approved purchase card
APPENDIX C

           statements will help ensure complete files. However, we also identified
           purchase card statements not reviewed within eight business days after the
           close of the monthly billing cycle.

We closed recommendation B.1 because the post had sufficient documentation for the
bills of collection. However, we would like to note that not all of the supporting
documentation was kept in the billing officer’s files. The intent of our recommendation
was to ensure the billing officer kept all supporting documentation organized and
attached to the bills of collections in their files, specifically the property use forms and
phone logs.

We closed recommendation D.3 because PCM section 744, regarding personal services
contractor housing, does not require specific documentation to explain the housing
choice. The post’s response was accurate that documentation was voluminous and the
decision to maintain the related emails in a single folder was prudent. However, the
initial decision on why the previous housing options were not acceptable was not clearly
documented in the folder. Recommendation D.4 states: That the Office of Acquisitions
and Contract Management revise PCM section 744 to include the process for approving
housing allowances on cost reimbursement for third country nationals. In revising PCM
section 744, OACM should consider requiring posts to justify the housing option when
not utilizing no-cost housing or existing Peace Corps leases.

In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when it is warranted, we may conduct a follow-
up review to confirm that action has been taken and to evaluate the impact.
        AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION   The audit was performed by Senior Auditor Bradley Grubb.


OIG CONTACT        If you wish to comment on the quality or usefulness of this
                   report to help us strengthen our product, please e-mail
                   Gerald P. Montoya, Assistant Inspector General for Audit,
                   at gmontoya@peacecorps.gov, or call him at
                   (202) 692-2907.
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
